September 2005
Report No. 05-036


The FDIC’s Management of
Travel Costs




           eral
        EVALUATION REPORT
                                                                                               Report No. 05-036
                                                                                                September 2005


                                  The FDIC’s Management of Travel Costs

                                  Results of Evaluation

                                  The FDIC can improve monitoring and controls over its travel program.
                                  Specifically, the Division of Finance (DOF) suspended a requirement for bank
Background and Purpose            examiners to make lodging reservations through SatoTravel, which, in turn,
of Evaluation                     reduced the amount of rebates the FDIC received under the contract for hotel
                                  reservations. As a result, DOF is exceeding the SatoTravel contract compensation
The FDIC contracted with          ceiling amount. We estimated that the FDIC may exceed the 5-year contract
the Scheduled Airlines            compensation ceiling price by $367,000—a contract increase of 40 percent. In
Traffic Offices, Inc.             late July 2005, the Division of Administration (DOA) approved additional funding to
(SatoTravel) to perform           cover anticipated contract costs through September 2006.
travel reservation services
for FDIC employees.               In addition, the FDIC could further reduce travel costs and increase program
SatoTravel assists the            controls by increasing the number of travelers that:
FDIC’s travelers in making
official travel arrangements      •   Stay in hotels that offer commissions to the FDIC. The FDIC received rebates
that are consistent with the          averaging 3.4 percent of total lodging amounts at commissionable hotels for
FDIC’s travel policies, cost          2003 and 2004. Because rebates are volume-based, the FDIC could receive
considerations, and                   rebates as high as 10 percent of total lodging amounts, depending on the
employee preferences, in              volume of reservations to commissionable hotels.
that order.                       •   Use SatoTravel’s on-line reservation system to make lodging arrangements.
                                      Currently, only 11 percent of FDIC travelers use the on-line system.
The FDIC executed the
SatoTravel contract in            Further, DOF requires the use of the government-issued travel card only for airfare
August 2002 with 1 base           costs. Requiring the use of the government travel card for all travel costs,
year and four 1-year options.     including airline, hotel, and car rental would achieve modest savings in the form of
The FDIC is currently in          rebates from the travel card sponsor bank, strengthen management control over
option year 2 of the contract.    the travel program by providing better information for planning and negotiating
The total compensation            travel services, and promote internal consistency.
ceiling for the 5-year contract
period is $900,000.               Finally, most government agencies are required to use the General Services
                                  Administration’s (GSA) eTravel Program by 2006. The goal of the eTravel
The objective of this             program is to centralize the federal government’s travel process and reduce
evaluation was to determine       administrative travel expenses. Although the FDIC is not required to use the
whether the FDIC and              eTravel program, it could improve or eventually replace the FDIC’s current travel
SatoTravel are efficiently        program.
and effectively managing
travel costs and                  Recommendations and Management Response
requirements. Additional
details on our objective,         We recommended that DOF:
scope, and methodology are        • evaluate reinstating the FDIC’s policy requiring mandatory use of the national
provided in Appendix I.              travel agency for making hotel reservations while conducting bank
                                     examinations,
                                  • encourage travelers to stay in commissionable hotels,
                                  • provide guidance and training to FDIC employees on the use of SatoTravel’s
                                     on-line reservation system,
                                  • conduct an analysis to determine the cost/benefit of requiring the use of the
                                     government-issued travel card for all FDIC travel, and
                                  • research GSA’s eTravel program to determine whether it could improve or
                                     replace the FDIC’s current travel program.

                                  Management agreed with four of our five recommendations and adequately
                                  addressed the remaining recommendation to reinstate the policy requiring
_______________________
To view the full report, go to    mandatory use of the national travel agency for bank examiners.
www.fdicig.gov/2005reports.asp
                             TABLE OF CONTENTS

BACKGROUND                                                                        1

EVALUATION RESULTS                                                                2

Opportunities to Reduce Travel Costs and Improve Travel Controls and Management   2
     Hotel Reservations for Bank Examiners                                        3
     Contract Compensation Ceiling Amounts                                        4
     Hotels That Pay Commissions                                                  5
     SatoTravel’s Web Site Booking System                                         6

Other Matters for Consideration and Evaluation                                    7
      Use of the Travel Card                                                      7
      GSA’s eTravel Program                                                       8

RECOMMENDATIONS                                                                   8

CORPORATION COMMENTS AND OIG EVALUATION                                           9

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                                     10

APPENDIX II: CORPORATION COMMENTS                                                 11

APPENDIX III: MANAGEMENT RESPONSE TO RECOMMENDATIONS                              14

TABLES:
Table 1: SatoTravel Activity for 2004                                             1
Table 2: Compensation Ceiling Amounts Compared to Actual Payments                 4
Federal Deposit Insurance Corporation                                              Office of Audits
801 17th Street, NW, Washington, DC 20434                                          Office of Inspector General



DATE:                               September 21, 2005

MEMORANDUM TO:                      Fred S. Selby
                                    Director, Division of Finance




FROM:                               Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]

SUBJECT:                            The FDIC’s Management of Travel Costs
                                    (Report No. 05-036)

This report presents the results of our evaluation of the Federal Deposit Insurance Corporation’s
(FDIC) travel costs. The objective of this evaluation was to determine whether the FDIC and
Scheduled Airlines Traffic Offices, Inc. (SatoTravel) are efficiently and effectively managing
travel costs and requirements. Additional details on our objective, scope, and methodology are
provided in Appendix I.

Background

The FDIC executed a contract with SatoTravel, effective September 30, 2002, to perform travel
reservation services for FDIC employees. The contract had an initial period of performance
expiring on September 30, 2003 and four 1-year options. The FDIC is currently in option year 2,
which expires on September 30, 2005. The total compensation ceiling for the 5-year contract
period is $900,000. Under the terms of the contract set forth in the Contractor’s Pricing
Schedule, the FDIC will guarantee a minimum profit to SatoTravel at a percentage of net airline
and rail sales, including SatoTravel’s costs and expenses, direct and indirect, as well as any
profit, fee, or markup.

SatoTravel assists FDIC travelers in making official travel                    Table 1: SatoTravel Activity
arrangements consistent with the FDIC’s travel policies, cost                  for 2004
considerations, and employee preferences, in that order.
SatoTravel provides FDIC travelers a complete range of travel                    Travel Type          Totals
services on a nationwide basis. The contractor is required to make             Air/Rail Sales       $6,258,491
confirmed reservations, both domestic and international, for all               Number of Hotel
types of transportation (airline and rail), lodging, rental vehicles,          Reservations           12,692
                                                                               Number of Car
and conference facilities. Table 1 presents selected information on            Rental
SatoTravel activity for 2004. In addition, the FDIC budgeted                   Reservations            3,450
$46 million for travel expenses in 2004 and 2005. The Division of              Number of
Supervision and Consumer Protection’s (DSC) travel expenses                    Tickets Issued         19,914
accounted for about 80 percent of that amount for both years.                  Source: SatoTravel.

The Division of Finance (DOF) is responsible for the FDIC’s travel program and oversight of the
SatoTravel contract. The goal of the travel program is to provide efficient reimbursement to
employees, incorporate industry best practices, and allow the Corporation to conduct its primary
                                                                          Evaluation Results



business without distraction and with minimal administrative costs. Anyone authorized to travel
on official business for the FDIC is required to follow the FDIC’s Regular Duty Travel
Regulations, which are issued by DOF and can be found on the FDIC’s internal Web site.

Evaluation Results

The FDIC can improve its monitoring and controls over the FDIC’s travel program. Specifically,
DOF suspended a requirement for bank examiners to make lodging reservations through
SatoTravel, which, in turn, reduced the amount of rebates the FDIC received under the contract
for hotel reservations. As a result, DOF is exceeding the SatoTravel contract compensation
ceiling amount. We estimated that the FDIC may exceed the 5-year contract compensation
ceiling price by $367,000—a contract increase of 40 percent. In late July 2005, DOA approved
additional funding to cover anticipated contract costs through September 2006.

In addition, the FDIC could further reduce travel costs and increase program controls by
increasing the number of travelers that:

•   Stay in hotels that offer commissions to the FDIC. The FDIC received rebates averaging
    3.4 percent of total lodging amounts at commissionable hotels for 2003 and 2004. Because
    rebates are volume-based, the FDIC could receive rebates of up to 10 percent of total
    lodging amounts, depending on the volume of reservations to commissionable hotels.

•   Use SatoTravel’s on-line reservation system to make lodging arrangements. Currently, only
    11 percent of FDIC travelers use the on-line system.

Further, DOF requires the use of the government-issued travel card only for airfare costs.
Requiring the use of the government travel card for all travel costs, including airline, hotel, and
car rental would achieve modest savings in the form of rebates from the travel card sponsor
bank, strengthen management control over the travel program by providing better information
for planning and negotiating travel services, and promote internal consistency.

Finally, most government agencies are required to use the General Services Administration’s
(GSA) eTravel Program by 2006. The goal of the eTravel program is to centralize the federal
government’s travel process and reduce administrative travel expenses. Although the FDIC is
not required to use the eTravel program, it could improve or eventually replace the FDIC’s
current travel program.

Opportunities to Reduce Travel Costs and Improve Travel Controls
and Management
The FDIC has several opportunities to reduce overall travel costs and improve controls and
management of the travel program. Currently, DSC examiners are not required to make lodging
reservations through SatoTravel. Further, the FDIC could do more to increase: (1) the number
of travelers staying in commissionable hotels and (2) the use of SatoTravel’s on-line reservation
system.




                                                 2
                                                                                     Evaluation Results



Hotel Reservations for Bank Examiners

DSC examiners are not booking hotel reservations through SatoTravel when they are conducting
examinations. As a result, about 70 percent of the FDIC’s hotel reservations are not being booked
through SatoTravel. In May 2004, in response to DSC complaints, DOF changed the FDIC’s
mandatory policy for DSC examiners to book hotels through SatoTravel. Consequently, the FDIC is
not receiving rebates from hotel commissions on most FDIC travelers’ lodging costs. Further, most
FDIC travelers’ lodging costs are not included in activity reports that SatoTravel provides to DOF to
manage the travel program.

In August 2001, the FDIC contracted with a consultant for a review entitled, Travel and
Relocation Best Practices Assessment for the FDIC.1 The consultant’s report recommended
that the FDIC “mandate use of the FDIC’s corporate travel agency for all travel arrangements
involving airline, hotel, car rental, or delivery service.” The consultant indicated that mandatory
use of a travel agency would improve management controls over the travel program and
enhance the FDIC’s ability to serve FDIC travelers and administrative staff more efficiently.
Thereafter, the FDIC required that all Corporation travelers use the FDIC’s nationwide travel
agency to make all transportation, lodging, and rental car reservations.

In an effort to improve the FDIC’s travel-related programs and services, DOF conducted a
customer service evaluation in August 2003. DOF received a significant number of unfavorable
comments from examiners concerning hotel reservations in both rural and metropolitan areas.
For example, DSC examiners complained that booking reservations through SatoTravel took an
unreasonable amount of time, and in many cases, SatoTravel’s reservation system did not
include available hotels in small towns. In response to the complaints, SatoTravel and DSC
developed a database of information for about 350 hotels where FDIC-supervised banks were
located. However, DSC examiners continued to indicate that it was easier and less time-
consuming to book their own hotel reservations. In May 2004, DOF officials issued an
exception to the travel policies to allow DSC examiners the ability to book their own hotel
reservations. Based on our discussions with DOF and DSC, it appears that DOF suspended
the travel policy requirement before DSC and SatoTravel had an opportunity to utilize the hotel
database.

The FDIC’s Regular Duty Travel Regulations, Chapter 2, Travel Regulations Overview, section
2.B.1., Employee Responsibilities/Obligations, Part F, requires the use of the FDIC’s national
travel agency to book all transportation, lodging, and rental cars. However, section 2.B.1. also
states that the “policy requiring mandatory use of the national travel agency to make hotel
reservations while conducting examinations of financial institutions or to make Amtrak rail
reservations is suspended indefinitely.”2 DOF used the wording “suspended indefinitely” to have
the ability to address this issue at a later time if necessary.

The policy exemption applies to DSC examiners only when they are traveling to conduct a bank
examination. All other DSC employees who are not examiners and examiners who are not
conducting a bank examination must book hotel reservations through SatoTravel. For the
period January 1, 2004 through December 31, 2004, SatoTravel booked $3.4 million in hotel
reservations. In contrast, the FDIC’s Electronic Travel Voucher (ETV) System indicated that
DOF had reimbursed FDIC travelers for $10.5 million in hotel expenses for the same period.

1
    The report was dated May 2003; however, the consultant discussed the findings with the FDIC in December 2001.
2
    The exception for making Amtrak reservations applies to all FDIC employees.




                                                          3
                                                                                     Evaluation Results



The difference of $7.1 million indicates that a significant percentage of hotel reservations are not
being booked through SatoTravel. DOF has estimated that it pays approximately $100,000 per
year more in travel expenses due to the loss of hotel rebates.

For those hotel reservations booked through SatoTravel, the FDIC receives various SatoTravel
reports that identify which hotels FDIC employees have reserved, whether FDIC employees are
following FDIC travel policies and procedures that relate to hotels for pricing (such as the allowable
GSA3 lodging rate for each location), and whether FDIC employees are staying at hotels that pay
commissions. SatoTravel is required to provide FDIC oversight manager with monthly reports on
reservations, refunds, and other travel data for all FDIC travelers. Due to the extent of reservations
being made directly by employees, the SatoTravel reports are not complete and could limit FDIC
managers’ ability to properly manage the travel program.

Contract Compensation Ceiling Amounts

The decision to exempt DSC examiners from using SatoTravel to make lodging reservations
contributed to the FDIC exceeding the specified compensation ceiling amounts under its
contract with SatoTravel. As of March 2005, the FDIC paid SatoTravel $741,662 in total
compensation for the 30-month period (October 2002 through March 2005) when only $700,000
was allowed under the contract through September 30, 2005, the end date of Option Period 2.
Table 2 presents contract cost information.

The contract states that SatoTravel “… shall notify the Contracting Officer, in writing, when
Contractor has incurred charges to the FDIC, in the aggregate, of seventy-five percent (75%) of
each of these dollar amounts.” SatoTravel did not notify the FDIC in 2004 when the charges
reached the amounts stated in the contract.

Table 2: Compensation Ceiling Amounts Compared to Actual Payments
                                                                Compensation   Actual Payments      Remaining
             Time Period               Contract Period             Ceiling      to SatoTravel         Funds
       October 1, 2002 through          Initial Period of
        September 30, 2003               Performance              $400,000         $259,222          $140,778
       October 1, 2003 through
        September 30, 2004              Option Period 1           $200,000         $258,357           $82,421

       October 1, 2004 through                                                 $224,083 (through
        September 30, 2005              Option Period 2           $100,000       March 2005)         ($41,662)

            Sub-Totals                                            $700,000         $741,662          ($41,662)
       October 1, 2005 through
        September 30, 2006              Option Period 3           $100,000
       October 1, 2006 through
        September 30, 2007              Option Period 4           $100,000
              Totals                                              $900,000         $741,662          ($41,662)
Source: OIG Analysis.




3
 GSA has partnered with the lodging industry to provide federal travelers with quality accommodations within per
diem allowances for selected high-volume travel destinations.




                                                            4
                                                                                Evaluation Results



The FDIC SatoTravel contract oversight manager, technical monitor, contract officer, and
contract specialist were unaware that the FDIC had exceeded the contract compensation ceiling
amounts. The FDIC’s Acquisition Policy Manual, Chapter 2, Requirements Package, states:

        The Contracting Officer and the Oversight Manager are jointly responsible for monitoring
        the total dollar amount of delivery orders against the approved expenditure authority
        and, where appropriate, against limits established within the contract for certain services
        or deliverables. The Contracting Officer will not issue a delivery order that is not in
        compliance with the contract or that may result in expenditures in excess of the
        approved expenditure for that contract.

According to a DOA Acquisition Services Branch (ASB) representative, the FDIC is no longer
allowing its divisions to spend funds that exceed the amounts specified in the contracts. The
Corporation is also requiring more oversight on all contracts to ensure that all terms and
conditions are being met and, specifically, that all payments are in accordance with contract
limits.

Should SatoTravel costs remain at about $250,000 a year, we estimated that SatoTravel could
exceed its contract compensation limit by $367,000 over the full 5-year contract period,
approximately a 40-percent increase. In this regard, the SatoTravel contract stated “… the ceiling
pricing takes into account certain estimated revenues from third party sources and to the extent such
revenues are not realized, appropriate adjustments to the ceiling prices will be made.”

On July 29, 2005, the Associate Director, ASB, approved a justification for a non-competitive
procurement from DOF for additional funding of $465,0004 for the SatoTravel contract. The
additional funding will cover expected contract costs through September 2006 (the fourth year of the
contract). DOF also provided the following events as justification for the additional funding:

    •   upcoming compensation negotiations with the National Treasury Employees Union (NTEU),
        which include travel program allowances;
    •   planned evaluation of FDIC’s ETV system and whether changes will impact the travel
        program;
    •   industry changes that could impact FDIC’s travel program; and
    •   possible implementation of a new on-line travel reservation tool later in 2005, which could
        yield significant cost savings.

Hotels That Pay Commissions

SatoTravel has agreements with many hotel establishments that offer commissions to
SatoTravel based on a percentage of the total FDIC reservations made to the hotel. Thus,
when the FDIC travelers book a hotel reservation through SatoTravel, the FDIC receives a
commission that is subtracted from the total invoice amount billed to the FDIC. The SatoTravel
contract requires SatoTravel to rebate all hotel commissions that they receive directly to the
FDIC.

SatoTravel’s contract with the FDIC states that SatoTravel shall provide FDIC travelers and
travel arrangers with lodging choices but that preference shall be given to hotels that are

4
 DOF computed the $465,000 additional funding through September 2006 by determining the remaining funds on the
contract of $61,195 and using a maximum expected cost of $35,000 per month for 15 months.




                                                      5
                                                                                       Evaluation Results



commissionable. However, the FDIC’s travel regulations do not require or encourage FDIC
employees to book reservations at hotels that offer commissions.

SatoTravel provided us with the top five hotels used by FDIC employees from October 2003
through September 2004. Three of the top five hotels that FDIC employees most often used
normally do not pay commissions on reservations.5 SatoTravel noted the majority of FDIC
travelers ask for a hotel by name. If a traveler does not request a hotel by name, SatoTravel
agents will first attempt to reserve a hotel that is in the SatoTravel hotel program. Such hotels
guarantee commissions and offer either a rate of 5 percent below per diem or additional
amenities with the per diem amount. Hotels participating in the SatoTravel program are
contractually obligated to pay SatoTravel commissions.

If the FDIC required all employees, including bank examiners, to book hotel reservations
through SatoTravel, the FDIC could receive additional rebates from hotels that participate in the
SatoTravel program. For example, if only 50 percent of the bookings were made at hotels that
offer rebates, and the FDIC received the average 2003 and 2004 rebate of 3.4 percent, the
FDIC could receive about $120,0006 annually in additional hotel rebates. Further, SatoTravel
stated the FDIC could receive rebates as high as 10 percent of the hotel lodging amount
depending on the volume of reservations.

SatoTravel’s Web Site Booking System

SatoTravel’s contract requires SatoTravel to provide FDIC travelers with the means to make
reservations by e-mail, through an on-line booking tool, by faxed request, and by telephone.
Each method must provide travelers the ability to make reservations for official travel in
accordance with FDIC policies. The on-line booking tool, FedTrip, was available to FDIC
employees from 2003 until May 2005. However, only 11 percent of FDIC travelers used
FedTrip to make travel reservations. SatoTravel is in the process of changing from FedTrip to a
new on-line system. Increased use of an on-line booking tool could reduce contract costs and
enhance program controls.

Opportunity for reducing contract costs: Currently, SatoTravel has six travel agents and one
supervisor assigned to provide travel services to the FDIC. With an increase in usage of the on-line
booking tool, the FDIC could reduce its travel costs by reducing the number of designated travel
agents that currently provide services to the FDIC. The FDIC pays for all travel agent salaries,
benefits, and overhead associated with travel services for the FDIC. A SatoTravel contract
representative indicated that SatoTravel could reduce the number of agents assigned to the FDIC
contract by one agent for each 15-percent increase in the number of on-line reservations and
estimated a savings of about $19,4277 annually. If the FDIC increased on-line usage by 45 percent,
the FDIC could save the costs for salaries and benefits for three agents, thereby reducing overall
travel costs paid to SatoTravel. The SatoTravel contract currently includes no provisions for reducing
travel agent charges in response to an increased usage of the on-line booking tool.



5
  Although the majority of these hotels normally do not pay commissions, some hotels are independently owned and
pay commissions even though they do not participate in the SatoTravel program.
6
  This estimated figure of $120,000 is in line with the $100,000 that FDIC officials estimated the FDIC would receive
in rebates from the policy change for DSC examiners.
7
  SatoTravel stated that this reduction consists of $24,684 in salary and benefit expenses for one travel agent and
$3,601 in reductions for other direct expenses offset by $8,857 in additional self-booking fees annually.




                                                          6
                                                                         Evaluation Results



Marketing of the on-line booking tool: As discussed earlier, only about 11 percent of FDIC
travelers used FedTrip. This low usage level could have resulted from a system that is not
considered user-friendly, inadequate training in the use of FedTrip, or limited encouragement by
FDIC management to use the system. According to SatoTravel, other government agencies
have experienced a higher usage of on-line booking tools as compared to the FDIC. For
example, one government agency reported 98-percent usage of FedTrip.

According to SatoTravel representatives, the success of an on-line system depends on properly
training FDIC employees. SatoTravel will offer specific on-line training to FDIC employees. In
addition, SatoTravel offers continuous classes to all of its government clients who use an on-line
system. Also, SatoTravel has developed a user manual/job aid that will be made available to all
users. DOF plans to issue a global e-mail announcing the new on-line system when it is ready
for use. DOF will also address the FDIC’s policy on the use of the new on-line system. DOF
does not intend to make use of the on-line system mandatory but will encourage all travelers to
use it. It is important that the FDIC adequately market the new on-line system to FDIC travelers
to ensure employee buy-in.

Contractual requirement for an on-line booking tool: As discussed earlier, the SatoTravel
contract required SatoTravel to provide an on-line booking tool to FDIC travelers. As of
May 1, 2005, FedTrip was no longer available to FDIC employees for booking travel
reservations. Its replacement, Quality Agent, was scheduled to be available on May 1, 2005;
however, due to technical complications, FDIC decided that Quality Agent would not work in the
FDIC travel environment. Instead, SatoTravel planned to test a system called RESX in several
FDIC locations across the country, beginning on September 1, 2005. The test will run for 2
months, and if successful, DOF will implement RESX FDIC-wide. According to DOF, RESX is
easier to navigate than QA and will meet the business needs of FDIC travelers.

Other Matters for Consideration and Evaluation

The FDIC has other opportunities to reduce travel costs and improve control over its travel
program. Specifically, the FDIC could revise its policy to require all employees to use the travel
card for all official travel costs, including airline, hotel, and car rental costs. The FDIC should
also consider utilizing GSA’s eTravel program for FDIC travel needs.

Use of the Travel Card

The FDIC can increase the rebate it receives from the travel card sponsor by requiring
employees to charge all airline, hotel, and car rental costs on the travel card. Currently, the
FDIC policy requires the mandatory use of the travel card for airline charges only. The airline
industry will not allow a traveler to receive a government fare if the reservation is not charged on
a government travel card. However, there is no requirement to use the travel card for hotel or
car rental charges.

The Travel and Transportation Reform Act of 1998, Public Law 105-264, required that federal
employees use a government-issued travel charge card for payment of all expenses relating to
official government travel. However, the Act also authorized agency heads or their designees to
exempt employees, classes of employees, payments, or classes of payments from the
requirements of the Act. Consistent with the Act, and as the result of negotiations with the
NTEU, paragraph 2.G.S.C. of the FDIC’s Regular Duty Travel Regulation allows FDIC



                                                 7
                                                                       Evaluation Results



employees to use personal credit cards for hotel, rental car, and meal expenses while on
regular duty travel to accumulate frequent flyer points or cash rebates associated with the use of
such cards. Any changes to this policy would have to be negotiated with the NTEU.

Many credit card issuers provide incentives for the card holders to make charges on their cards.
Incentives include reward points for every dollar charged on the card that can be used for free
airline tickets, free hotel stays, and various other gifts. Thus, some FDIC employees would
rather use their own credit cards to charge official FDIC travel.

A DOF representative estimated that if the FDIC increased its annual government-issued credit
card spending from the current level of $17.5 million to $35 million, the FDIC could receive an
additional $12,000 in rebates that would decrease the FDIC’s travel costs. The travel consultant
report entitled, Travel and Relocation Best Practices Assessment for the FDIC, also
recommended mandatory use of the corporate credit card. Besides increasing the amount of
rebates to the FDIC from the sponsor bank, mandatory use of the card would provide the FDIC
with better information for monitoring travel costs and planning and negotiating travel services.

GSA’s eTravel Program

GSA initiated its eTravel project in November 2001 as one of five e-government initiatives
undertaken in response to the President’s Management Agenda. eTravel is aimed at improving
government operations and is expected to save taxpayers 50 percent in government travel
costs over 10 years. GSA is the managing partner of this program in collaboration with other
partner agencies. GSA has mandated that all agencies, with a few exceptions such as the
Department of Defense, choose from the eTravel-approved contractors by 2006. The goal of
eTravel is to consolidate the federal government’s travel process in a Web-centric service that
covers all steps of a travel transaction, including planning and authorizing travel, making
reservations, delivering electronic tickets, calculating and approving reimbursements, and
archiving data. The goal is to cut administrative expenses by increasing the number of self-
service travel transactions.

Although the FDIC is not required to use the eTravel program, it could improve or eventually
replace the FDIC’s current travel program. Accordingly, we believe the FDIC should explore the
eTravel program to determine whether it could be a long-term replacement of and improvement
over the FDIC’s current travel program.

Recommendations

We recommend that the Director, DOF:

1. Evaluate reinstating the FDIC’s travel policy requiring mandatory use of the national travel
   agency for making hotel reservations while conducting examinations of financial institutions.

2. Encourage FDIC travelers to use hotels that offer commissions for all lodging reservations.

3. Provide information, guidance, and training to FDIC employees to ensure that they
   understand how to use SatoTravel’s on-line reservation system and its capabilities so that
   the FDIC can increase usage of the system.




                                                8
                                                                       Evaluation Results



4. Conduct an analysis to determine the cost/benefit of making the government travel card
   mandatory for all FDIC travel.

5. Research GSA’s eTravel Program and determine whether the travel services available
   under the program could improve or replace the FDIC’s current travel program.

CORPORATION COMMENTS AND OIG EVALUATION

The Director, DOF, provided a written response dated September 12, 2005. DOF’s response is
presented in its entirety in Appendix II. Appendix III presents a summary of DOF’s responses to
our recommendations.

DOF agreed with recommendations 2 through 5 and proposed actions sufficient to resolve those
recommendations. However, the four recommendations will remain undispositioned and open
for reporting purposes until we have a determined that the agreed-to corrective actions have
been completed and are effective.

Regarding recommendation 1, DOF stated that it gave considerable thought to reinstating the
policy requiring mandatory use of the national travel agency for DSC examiners. However,
DOF stated that given the numerous complaints by DSC examiners, the additional time they
would have to spend making hotel reservations through SatoTravel, and the negative impact the
policy had on examiner morale, DOF does not intend to reinstate the policy at this time. DOF’s
actions are responsive to the recommendation, and we consider recommendation 1 resolved,
dispositioned, and closed.

However, because of DOF’s position on recommendation 1 and our estimate that 70 percent of
the FDIC hotel reservations are not being booked through SatoTravel, the current management
fee pricing structure under the SatoTravel contract’s may not be the most cost-effective option
for the FDIC. We encourage DOF to review the contract pricing structure to ensure that it
reflects the FDIC’s current business travel model. For example, a transaction-based fee
structure may be a more cost-effective option for the FDIC. If DOF determines that the current
pricing structure is not the most cost-effective option, DOF should re-solicit a new contract for
travel services or renegotiate the contract with SatoTravel.




                                                9
                                                                                   APPENDIX I



Objective, Scope, And Methodology
The objective of this evaluation was to determine whether the FDIC and SatoTravel are efficiently
and effectively managing travel costs and requirements.

To accomplish our objective, we:

•   Interviewed DOF and DOA personnel responsible for the management of the FDIC’s travel
    program. In addition, we interviewed DSC personnel and reviewed various DSC documents to
    gather input on travel-related problems within the FDIC, specifically, problems related to the
    change in FDIC policy that allows DSC examiners to book hotel reservations without using
    SatoTravel. Further, we interviewed two representatives from SatoTravel to gather information
    on the travel industry, contract issues, and the on-line booking Web sites, FedTrip and Quality
    Agent.

•   Reviewed the FDIC’s Regular Duty Travel Regulations in relation to DSC examiners booking
    hotel reservations. We also reviewed other related travel issues.

•   Reviewed various travel reports prepared by SatoTravel as required in the contract. For
    example, we reviewed the City Pair Report, Refund Report, Hotel Booking Report, and the
    Reservation and Ticketing report. In addition, we reviewed the FDIC Quarterly Travel Activity
    Report prepared by SatoTravel for the period October–December 2004.

•   Determined the total amount of payments made to SatoTravel from October 2002 through
    March 2005 to ensure that all amounts were in agreement with the contract terms and
    conditions. In addition, we ensured that no duplicate payments had been made to SatoTravel.

•   Reviewed the contract executed August 29, 2002 between the FDIC and SatoTravel for travel
    services.

•   Attended a demonstration sponsored by SatoTravel on one of the available on-line travel
    reservation booking tools.

•   Reviewed the Runzheimer International, Ltd., report entitled, Travel and Relocation Best
    Practices Assessment for the Federal Deposit Insurance Corporation, dated May 2003.

•   Reviewed various internal reports generated by DOF for travel-related issues. For example,
    we reviewed the FDIC Management Fee Summary Report for the period October 2002 through
    December 2004.

We evaluated the effectiveness of management controls by reviewing policies and procedures,
organizational charts, and the SatoTravel contract, contract invoices, and travel activity reports.
Also, we relied on information from ETV to obtain background statistics on FDIC travel activity and
to estimate the amount of lodging costs for lodging reservations that were not being made through
SatoTravel. We did not perform specific procedures to validate the reliability of data within ETV
because it was not significant to our evaluation objective.

We conducted our evaluation field work from March through July 2005 in accordance with
generally accepted government auditing standards.




                                                10
                       Appendix II



Corporation Comments
     APPENDIX II




12
     APPENDIX II




13
                                                                                                                       APPENDIX III




MANAGEMENT RESPONSE TO RECOMMENDATIONS
This table presents the management responses on the recommendations in our report and the status of the recommendations as of the
date of report issuance.

                                                                                                                               Open
 Rec.                                                             Expected          Monetary   Resolved:a   Dispositioned:b      or
Number      Corrective Action: Taken or Planned/Status          Completion Date     Benefits   Yes or No       Yes or No      Closedc
          DOF did not concur with the recommendation but
   1      considered reinstating the policy requiring
          mandatory use of the national travel agency by               N/A             $0         Yes            Yes          Closed
          DSC examiners. However, given the numerous
          complaints by DSC examiners, additional time
          they would spend making hotel reservations
          through SatoTravel, and the negative impact the
          policy had on examiner morale, DOF does not
          intend to reinstate the policy at this time.
          DOF cannot mandate the use of commissionable
   2      hotels without first satisfying its collective         October 28, 2005      $0         Yes             No           Open
          bargaining obligations. However, DOF will advise
          travelers of the benefits of booking
          commissionable properties. In addition, if the new
          on-line reservations system is implemented, the
          global e-mail announcing its implementation will
          include information on how to identify and select
          SatoTravel hotel rates.
          DOF is evaluating the on-line reservations system
   3      called RESX and if a decision is made to
          implement this system, a user guide will be posted
          on the DOF travel Web site. Travelers will be
          advised to read the user guide prior to making        December 31, 2005      $0         Yes             No           Open
          reservations in the on-line system and will be
          provided a help desk number and an e-mail
          address. General information and usage tips will
          also be provided to travelers and will be posted on
          the DOF travel Web site.




                                                                      14
                                                                                                                          APPENDIX III



                                                                                                                                    Open
 Rec.                                                               Expected           Monetary   Resolved:a   Dispositioned:b        or
Number      Corrective Action: Taken or Planned/Status            Completion Date      Benefits   Yes or No       Yes or No        Closedc
          DOF will work with Bank of America and conduct
    4     an analysis to determine the cost/benefit of
          making the government travel card mandatory for
          all FDIC travel. If the analysis shows a financial       January 31, 2006       $0         Yes             No              Open
          benefit sufficient to warrant a policy change, such
          a change would not be implemented until DOF
          met its collective bargaining obligations.
          DOF has scheduled a process improvement study
    5     of the travel processing system in 2006. The
          study will review the benefits of each of GSA’s
          e-Travel programs. In addition, DOF will review         September 30, 2006      $0         Yes             No              Open
          other commercial travel processing systems. The
          FDIC’s ETV will also be studied to determine the
          feasibility of adding capabilities available in GSA’s
          programs but not available in ETV.
a
  Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered
                  resolved as long as management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary
benefits achieved through implementation identified. The OIG is responsible for determining whether the documentation provided by management
is adequate to disposition the recommendation.
c
  Once the OIG dispositions the recommendation, it can then be closed.




                                                                        15
